No.
IN THE

ELECTRONIC PRIVACY INFORMATION CENTER,
v.

Petitioner,

UNITED STATES DEPARTMENT OF COMMERCE, ET AL.,
Respondents.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the District of Columbia Circuit

APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
Marc Rotenberg
Counsel of Record
Alan Butler
John Davisson
Megan Iorio
ELECTRONIC PRIVACY
INFORMATION CENTER
1519 New Hampshire
Avenue N.W.
Washington, DC 20036
(202) 483-1140
rotenberg@epic.org

TABLE OF CONTENTS
APPENDIX A: Opinion of the U.S. Court of
Appeals for the D.C. Circuit, dated
June 28, 2019 ................................................. 1a
APPENDIX B: Judgment of the U.S. Court of
Appeals for the D.C. Circuit, dated
June 28, 2019 ............................................... 17a
APPENDIX C: Order of the U.S. Court of
Appeals for the D.C. Circuit, dated
September 16, 2019 ...................................... 19a
APPENDIX D: En Banc Order of the U.S.
Court of Appeals for the D.C. Circuit,
dated September 16, 2019 ........................... 21a
APPENDIX E: Memorandum Opinion of the
U.S. District Court for the District of
Columbia, dated February 6, 2019 .............. 23a
APPENDIX F: Order of the U.S. District
Court for the District of Columbia,
dated February 6, 2019 ................................ 47a
APPENDIX G: Order of the U.S. District
Court for the District of Columbia,
dated October 3, 2019 ................................... 48a
APPENDIX H: Statutory Provisions....................... 49a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
Argued May 8, 2019
Decided June 28, 2019
No. 19-5031
ELECTRONIC PRIVACY INFORMATION CENTER,
APPELLANT
V.

UNITED STATES DEPARTMENT OF COMMERCE AND
BUREAU OF THE CENSUS,
APPELLEES
Appeal from the United States District Court
for the District of Columbia
(No. 1:18-cv-02711)
John Davisson argued the cause for the appellant. With him on the briefs were Alan Butler and
Marc Rotenberg.
Sarah Carroll, Attorney, U.S. Department of
Justice, argued the cause for appellees. With her on
the brief was Mark B. Stern, Attorney.
Before: HENDERSON and MILLETT, Circuit
Judges, and SENTELLE, Senior Circuit Judge.

2a
Opinion for the Court filed by Senior Circuit
Judge SENTELLE.
SENTELLE, Senior Circuit Judge: On March 26,
2018, the Department of Commerce announced that a
citizenship question would be added to the 2020 Census. The Electronic Privacy Information Center
(EPIC) contends that, before this announcement was
made, its members were entitled to a Privacy Impact
Assessment by law. EPIC sued to enjoin the addition
of the question on this basis, and now appeals the district court’s denial of its motion for a preliminary injunction. Because EPIC lacks standing, we remand to
the district court with instructions to dismiss.
I.

Background

A. The E-Government Act
In 2002, Congress passed the E-Government
Act to modernize and regulate the government’s use of
information technology. Pub. L. No. 107-347, 116 Stat.
2899 (codified at 44 U.S.C. § 3501 note) (hereinafter
“E-Government Act”). The Act outlines eleven purposes. Nine involve improving government efficiency,
organization, and decision-making. E-Government Act
§ 2(b). In addition to these predominantly agency-centric goals, however, the Act also aims to “provide increased opportunities for citizen participation in Government,” and “[t]o make the Federal Government
more transparent and accountable.” §§ 2(b)(2), (9).
Section 208 of the Act contains privacy provisions. Its stated purpose is to “ensure sufficient protections for the privacy of personal information as agencies
implement
citizen-centered
electronic

3a
Government.” E-Government Act § 208(a). To effectuate this purpose, § 208 requires federal agencies to
conduct, review, and, “if practicable,” publish, a Privacy Impact Assessment (PIA) before “initiating a new
collection of information” that involves personally
identifiable information that will be “collected, maintained, or disseminated using information technology.” § 208(b)(1)(A)–(B). A “collection of information”
is defined as “obtaining, causing to be obtained, soliciting, or requiring the disclosure ... of facts or opinions”
through “identical questions posed to ... ten or more
persons.” 44 U.S.C. § 3502(3)(A). The word “initiating”
is not defined by statute.
A PIA required by a new collection of information must address, at a minimum: what information will be collected, why it is being collected, how
it will be used, how it will be secured, with whom it
will be shared, whether a system of records is being
created under the Privacy Act, and what “notice or opportunities for consent” will be provided to those impacted. E-Government Act § 208(b)(2)(B)(ii).
B. The Census
To apportion representatives among the several
States, the Census Clause of the United States Constitution requires an “actual Enumeration” of the United
States population. U.S. Const. art. I, § 2, cl. 3. The census occurs every ten years, “in such Manner as [Congress] shall by Law direct.” Id. Pursuant to this command, Congress passed a series of census laws directing the Secretary of Commerce to conduct a decennial
census and establishing the Census Bureau as an
agency within the Department of Commerce. 13
U.S.C. §§ 2, 141(a). These laws give the Secretary
broad authority to “obtain such other census

4a
information as necessary.” Id. § 141(a). The census has
historically included a wide variety of demographic
questions, often including questions about citizenship
status. With few exceptions, a refusal to answer “any
of the questions” on the census is a violation of law. 13
U.S.C. § 221.
The Census Bureau operates at least six information technology (IT) systems that process, store,
and disseminate personally identifiable information
from census responses. The primary system used for
the census is called “CEN08.” This system shares information with five other systems: “CEN21,” “CEN05,”
“CEN11,” “CEN13,” and “CEN18.” The Bureau maintains a PIA for each system on a publicly-available
website. Because the use of the systems changes regularly, the Bureau reviews and updates each assessment at least once per year.
C. The Challenge
On March 26, 2018, the Secretary of Commerce,
Wilbur Ross, announced that a citizenship question
would be added to the 2020 Census. A variety of legal
challenges to the merits of that decision followed.
This case presents a narrow question: when
does the addition of the citizenship question need to be
addressed in a PIA? The parties agree that the E-Government Act requires the government to complete a
PIA before “initiating a new collection of information.”
E-Government Act § 208(b)(1)(A)(ii). Their disagreement involves the meaning of the word “initiating.”
The Census Bureau believes that it does not initiate a
collection of information until it solicits information
from the public. If this is correct, then the Bureau is
not required to produce PIAs until questionnaires are
mailed out in 2020. The Government has consistently

5a
provided assurances, both before the district court and
here on appeal, that the assessments will be completed
“before it distributes any 2020 Decennial Census questionnaires.” See, e.g., Gov. Br. at 30. Indeed, the PIA
updates have been in progress as this litigation proceeded, and an updated PIA addressing the citizenship
question was published for one of the six relevant IT
systems (CEN08) a few days before this Court heard
oral argument. Notwithstanding these assurances and
evidence of progress, EPIC, a public interest research
center focused on privacy and civil liberties, challenges
the Government’s interpretation. In EPIC’s view, the
decision to add the question was the initiation of information collection. If this interpretation is correct,
the completed PIAs were required before the decision
to add the question was announced on March 26, 2018.
Eight months after Secretary Ross’s announcement, EPIC filed a complaint in the district court. It
alleged three counts against the Department of Commerce and the Bureau of the Census—two under the
Administrative Procedure Act and one under the Declaratory Judgment Act. Count One alleges that the
Secretary committed an unlawful act under 5 U.S.C. §
706(2)(a) and (c) when he announced the decision to
add the citizenship question before completing the
PIAs. Similarly, Count Two alleges that the government unlawfully withheld agency action, in violation
of 5 U.S.C. § 706(1), by failing to timely complete and
publish the PIAs. Count Three seeks a declaration of
rights under 28 U.S.C. § 2201(a). Among other requested relief, EPIC asks the court to: (1) set aside the
decision to add the citizenship question; (2) order that
the decision be revoked until the PIAs are completed

6a
and published; and (3) order the completion and publication of the PIAs.
On January 18, 2019, EPIC moved for a preliminary injunction. In the text of the proposed order submitted with its motion, EPIC asked that the Census
Bureau be “enjoined from initiating any collection of
citizenship status information.” Pl.’s Mot. Prelim. Inj.
Attach. 2 at 1 (emphasis added). This is curious, since
EPIC’s entire argument is that such collection has already been initiated. Nevertheless, the district court
denied the motion because EPIC failed to show a likelihood of success on the merits or a likelihood of irreparable harm. EPIC v. U.S. Dep’t of Commerce, 356 F.
Supp. 3d 85, 89, 95–97 (D.D.C. 2019). The district
court held that EPIC was not likely to succeed on the
merits because “initiating a new collection of information” requires more than a decision to collect information at some point in the future. Id. at 89–91. The
court agreed with the Government that collection did
not begin until the first set of census questions was
mailed out. Id. at 90. The district court also concluded
that EPIC was not likely to suffer irreparable harm
since the collection of citizenship information—set to
occur in 2020—was not imminent. Id. at 95–97. EPIC
timely appealed the denial of its motion.
II. Jurisdiction
We have the statutory jurisdiction to review the
denial of a preliminary injunction under 28 U.S.C. §
1292(a)(1). Before we review the merits of this appeal,
however, we must consider whether federal courts
have the constitutional power to decide this case in the
first place. “Every federal appellate court has a special
obligation to satisfy itself not only of its own jurisdiction, but also that of the lower courts in a cause under

7a
review ....” Arizonans for Official English v. Arizona,
520 U.S. 43, 73, 117 S.Ct. 1055, 137 L.Ed.2d 170 (1997)
(internal quotations omitted). “When the lower federal
court lacks jurisdiction, we have jurisdiction on appeal, not of the merits but merely for the purpose of
correcting the error of the lower court in entertaining
the suit.” Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 95, 118 S.Ct. 1003, 140 L.Ed.2d 210 (1998)
(internal quotations omitted).
“The Constitution limits our ‘judicial Power’ to
‘Cases’ and ‘Controversies,’ U.S. Const. art. III, § 2, cl.
1.” West v. Lynch, 845 F.3d 1228, 1230 (D.C. Cir. 2017)
(citing Steel Co., 523 U.S. at 102, 118 S.Ct. 1003).
“[T]here is no justiciable case or controversy unless the
plaintiff has standing.” Id. “To establish standing, the
plaintiff must show (1) it has suffered a concrete and
particularized injury (2) that is fairly traceable to the
challenged action of the defendant and (3) that is likely
to be redressed by a favorable decision, i.e., a decision
granting the plaintiff the relief it seeks.” EPIC v. Presidential Advisory Comm’n on Election Integrity
(PACEI), 878 F.3d 371, 376–77 (D.C. Cir. 2017) (internal quotations omitted). EPIC is required to establish
standing as to each claim, and each form of requested
relief. See id. at 377. Since the three counts in EPIC’s
complaint involve a repackaging of the same underlying grievance, we need not undertake a separate
standing analysis as to each claim.
As an organization, EPIC can assert standing in
one of two ways. It can assert standing on its own behalf, as an organization, or on behalf of its members,
as associational standing. See Am. Soc. for Prevention
of Cruelty to Animals v. Feld Entm’t, Inc., 659 F.3d 13,
24 (D.C. Cir. 2011). As we will explain, EPIC’s

8a
assertion of organizational standing is plainly foreclosed by precedent. Its assertion of associational
standing also fails, because it has not identified a concrete injury suffered by one of its members.
A. Organizational Standing
“[A]n organization may establish Article III
standing if it can show that the defendant’s actions
cause a concrete and demonstrable injury to the organization’s activities that is more than simply a setback
to the organization’s abstract social interests.” Feld
Entm’t, 659 F.3d at 25 (internal quotations omitted).
This Court has previously considered and rejected
EPIC’s assertion of organizational standing with respect to § 208 of the E-Government Act. PACEI, 878
F.3d 371. In PACEI, EPIC challenged the authority of
the Presidential Advisory Commission on Election Integrity to collect voter information from each state
without first publishing a PIA as required by § 208.
878 F.3d at 374. The requested relief included: (1) an
order requiring the PACEI to “promptly” publish a PIA
and (2) an order enjoining its collection of voter data.
Id. at 377, 380. We held that EPIC did not have organizational standing to compel the publication of a PIA
or to seek an injunction barring the collection of information. Id. at 378, 380. On both counts, EPIC was unable to show how the failure to publish a PIA concretely injured its organizational interest. Id. at 379.
We held that § 208 did not confer an informational interest on EPIC as an organization, and any resources
spent obtaining information that would otherwise
have been in a PIA was a “self-inflicted budgetary
choice that cannot qualify as an injury in fact.” Id. The
same reasoning applies to the present complaint.

9a
Thus, any assertion of organizational standing by
EPIC under § 208 is foreclosed by our prior precedent.
B. Associational Standing
With organizational standing out of the question, we turn to EPIC’s assertion of associational
standing. An organization can assert associational
standing on behalf of its members if: “(1) at least one
of their members has standing to sue in her or his own
right, (2) the interests the association seeks to protect
are germane to its purpose, and (3) neither the claim
asserted nor the relief requested requires the participation of an individual member in the lawsuit.” Am.
Library Ass’n v. FCC, 401 F.3d 489, 492 (D.C. Cir.
2005).
We begin our analysis by observing that EPIC
is a membership organization. Respondent contends
that our precedent determines that EPIC is not, citing
PACEI. It is true that when we issued our decision in
PACEI, we noted that “as far as the record shows,
[EPIC] has no traditional membership[.]” 878 F.3d at
380. Since that decision issued, however, the nature of
the organization has changed. In January 2018, EPIC
amended its bylaws. The new bylaws require the organization to designate “members” who must be “distinguished experts in law, technology, and public policy.” Members are eligible to sit on the Board of Directors. They also provide leadership to the organization
and pay dues. We implicitly recognized that these
changes were enough to turn EPIC into a membership
organization when we conducted an associational
standing analysis in EPIC v. FAA, 892 F.3d 1249,
1253-55 (D.C. Cir. 2018). We expressly recognize it
here.

10a
Having established that EPIC is a membership
organization, we can examine the first prong of the associational standing analysis. At this step, EPIC must
show, for each of its claims, that at least one of its
members has standing. See Am. Library Ass’n, 401
F.3d at 492. By necessity, this requires at least one of
EPIC’s members to have suffered a “concrete and particularized” injury. See Lujan v. Defs. of Wildlife, 504
U.S. 555, 560, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992).
EPIC avers that its members have suffered, or will suffer, both informational and privacy injuries. However,
they have made no such showing.
C. Privacy Injury
EPIC asserts that its members will suffer a privacy injury if their citizenship status information is
“unlawfully collected.” EPIC argues that the act of collecting information without a PIA, by itself, constitutes an imminent, concrete, and particularized privacy injury. But “a bare procedural violation, divorced
from any concrete harm, [does not] satisfy the injuryin-fact requirement of Article III.” Spokeo, Inc. v. Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1549, 194 L.Ed.2d
635 (2016). Therefore, to plausibly show a privacy injury, EPIC must allege harm that is distinct from a
simple failure to comply with the procedural requirements of § 208. In the privacy context, such harm
would ordinarily stem from the disclosure of private
information. Since EPIC has not shown how a delayed
PIA would lead to a harmful disclosure, its privacy injury theory fails.
Disclosure of individual census responses to
third parties is prohibited by law. 13 U.S.C. § 9. A census response may not be used for “any purpose other
than the statistical purposes for which it is supplied”

11a
and only “sworn officers and employees of the Department [of Commerce] or [Census] [B]ureau” may examine individual reports. Id. § 9(a)(1), (3). Responses are
not even admissible as evidence in court in most circumstances. Id. § 9(a). We agree with the Southern
District of New York that “it is pure speculation to suggest that the Census Bureau will not comply with its
legal obligations to ensure the privacy of respondents’
data or that those legal obligations will be amended.”
New York v. U.S. Dep’t of Commerce, 351 F. Supp. 3d
502, 619 (S.D.N.Y. 2019). More specifically, EPIC has
not convinced us that a delay in receiving a PIA will
make the Census Bureau any less likely to comply
with these laws. Speculation, we have said before, “is
ordinarily fatal to standing.” PACEI, 878 F.3d at 379
(citing DaimlerChrysler Corp. v. Cuno, 547 U.S. 332,
344, 126 S.Ct. 1854, 164 L.Ed.2d 589 (2006)). Therefore, to the extent that EPIC relies on the potential
disclosure of their citizenship status to third parties as
the source of injury, we reject the theory as a “speculative chain of possibilities” that cannot establish an
injury. Accord Clapper v. Amnesty Int’l USA, 568 U.S.
398, 414, 133 S.Ct. 1138, 185 L.Ed.2d 264 (2013).
For the first time on appeal, EPIC also suggests
that its members have a constitutional privacy interest in keeping their citizenship status private from the
government itself. EPIC cites Whalen v. Roe and Nixon
v. Administrator of General Services for the proposition that its members have an interest in “avoiding
disclosure of personal matters” and that “informational privacy is ‘implicit in the concept of ordered liberty.’ ” Appellant Reply Br. at 10 (citing Whalen, 429
U.S. 589, 599 n.23, 97 S.Ct. 869, 51 L.Ed.2d 64 (1977);
Nixon, 433 U.S. 425, 455, 97 S.Ct. 2777, 53 L.Ed.2d

12a
867 (1977)). We have previously expressed “grave
doubts as to the existence of a constitutional right of
privacy in the nondisclosure of personal information,”
at least “where the information is collected by the government but not disseminated publicly.” Am. Fed’n of
Gov’t Employees v. HUD, 118 F.3d 786, 791, 794 (D.C.
Cir. 1997). These doubts are particularly acute where
the information in question is as deeply entwined with
national sovereignty and governance as citizenship
status.
We need not resolve this issue today, however,
because EPIC has not squarely challenged the merits
or constitutionality of the citizenship question in this
case. Rather, they challenge the procedural propriety
of the government’s collection of this information in
the absence of a timely PIA. The narrow question before the Court—a question about the timing of PIAs—
is completely “[dis]connected” from the broader question of whether a citizenship question on the census is
constitutionally permissible. Accord Sugar Cane
Growers Co-op. of Fla. v. Veneman, 289 F.3d 89, 94–95
(D.C. Cir. 2002). Therefore, for the purposes of this litigation, the existence or scope of a right to informational privacy with respect to citizenship status is not
relevant. EPIC has not shown that the timing for publishing PIAs is plausibly connected to the government’s collection of private information that it would
not otherwise collect. Especially because, as previously
noted (page 98–99, supra), the principal purpose of the
impact assessment is not to deter collection in the first
place, but instead to improve upon an agency’s storage
and sharing practices.

13a
In short, EPIC has failed to show that its members have suffered, or imminently will suffer, a privacy
injury as a result of a delayed PIA.
D. Informational Injury
Having concluded that EPIC’s members have
not suffered a privacy injury, we turn to the contention
that they have suffered an informational injury. To
show an informational injury, a plaintiff must show:
“(1) it has been deprived of information that, on its interpretation, a statute requires the government or a
third party to disclose to it, and (2) it suffers, by being
denied access to that information, the type of harm
Congress sought to prevent by requiring disclosure.”
Friends of Animals v. Jewell, 828 F.3d 989, 992 (D.C.
Cir. 2016). Mirroring our analysis in PACEI, we do not
consider whether EPIC satisfies the first prong of the
analysis, because EPIC’s members cannot satisfy the
second. See PACEI, 878 F.3d at 378.
Even if § 208 requires the disclosure of PIAs to
EPIC’s members, the organization cannot show that
those members have suffered the “type of harm Congress sought to prevent by requiring disclosure.” See
Jewell, 828 F.3d at 992. In PACEI, this Court considered what type of harm § 208 of the E-Government Act
was designed to prevent. We held that § 208 “is directed at individual privacy” and protects individuals
“by requiring an agency to fully consider their privacy
before collecting their personal information.” PACEI,
878 F.3d at 378 (emphasis in original). We read this
holding to reject the possibility that § 208 can support
an informational injury theory, at least in the absence
of a colorable privacy harm of the type that Congress
sought to prevent through the E-Government Act.

14a
Section 208 was not designed to vest a general
right to information in the public. Rather, the statute
was designed to protect individual privacy by focusing
agency analysis and improving internal agency decision-making. In this respect, § 208 is fundamentally
different from statutes like the Freedom of Information Act (FOIA) where the harm Congress sought
to prevent was a lack of information itself. Unlike §
208, FOIA was designed to grant enforceable rights to
information in the general public. The “broad mandate
of the FOIA is to provide for open disclosure of public
information” and to allow citizens “to be informed
about what their government is up to.” Baldrige v.
Shapiro, 455 U.S. 345, 352, 102 S.Ct. 1103, 71 L.Ed.2d
199 (1982); DOJ v. Reporters Comm. for Freedom of
Press, 489 U.S. 749, 773, 109 S.Ct. 1468, 103 L.Ed.2d
774 (1989) (internal quotations omitted). These purposes stand in contrast with the stated agency-centric
purpose of § 208 to “ensure sufficient protections for
the privacy of personal information as agencies implement citizen-centered electronic Government.” EGovernment Act § 208(a) (emphasis added).
Because the lack of information itself is not the
harm that Congress sought to prevent through § 208,
EPIC must show how the lack of a timely PIA caused
its members to suffer the kind of harm that Congress
did intend to prevent: harm to individual privacy. See
PACEI, 878 F.3d at 378. As discussed in Part II.B.1,
however, EPIC cannot allege an imminent privacy
harm without assuming the independent violation of
other laws by the Census Bureau. This is too speculative to support standing. For this reason, we hold that
EPIC cannot satisfy the second step of the Jewell

15a
analysis, and cannot show an informational injury,
just as it cannot show a privacy injury.
E. Disposition
Because we conclude that EPIC has failed, as a
matter of law, to show that any of its members have
suffered a concrete privacy or informational injury, we
lack jurisdiction to proceed and must remand the case
for dismissal. Indeed, we retain jurisdiction only “for
the purpose of correcting the error of the lower court
in entertaining the suit.” Steel Co., 523 U.S. at 95, 118
S.Ct. 1003.
We take a moment to explain why we have
sometimes affirmed the denial of a preliminary injunction based on a standing-related defect, but do not do
so here. One showing a plaintiff must make to obtain
a preliminary injunction is “a substantial likelihood of
success on the merits.” Food & Water Watch, Inc. v.
Vilsack, 808 F.3d 905, 913 (D.C. Cir. 2015). “[T]he
‘merits’ on which plaintiff must show a likelihood of
success encompass not only substantive theories but
also establishment of jurisdiction.” Id. (quoting
Obama v. Klayman, 800 F.3d 559, 565 (D.C. Cir. 2015)
(Williams, J., concurring)). In determining whether
the plaintiff has “a substantial likelihood of success on
the merits,” then, we have considered whether the
plaintiff has a “substantial likelihood of standing”—
that is, whether the plaintiff is likely to be able to
demonstrate standing at the summary judgment
stage. See id. at 912 (standing must be evaluated “under the heightened standard for evaluating a motion
for summary judgment” in “determining whether or
not to grant the motion for preliminary injunction”);
see also Bennett v. Spear, 520 U.S. 154, 167–68, 117
S.Ct. 1154, 137 L.Ed.2d 281 (1997) (“[E]ach element of

16a
Article III standing ‘must be supported in the same
way as any other matter on which the plaintiff bears
the burden of proof, i.e., with the same manner and
degree of evidence required at the successive stages of
litigation.’... [A] plaintiff must ‘set forth’ by affidavit or
other evidence ‘specific facts’ to survive a motion for
summary judgment.” (first quoting Lujan v. Defenders
of Wildlife, 504 U.S. 555, 561, 112 S.Ct. 2130, 119
L.Ed.2d 351 (1992), and then quoting Fed. R. Civ. P.
56(e) (1987))). “[A]n inability to establish a substantial
likelihood of standing requires denial of the motion for
preliminary injunction, not dismissal of the case.”
Food & Water Watch, 808 F.3d at 913. Thus, in cases
where we have found that a plaintiff had not established a “substantial likelihood of standing,” we have
affirmed the denial of a preliminary injunction. See,
e.g., PACEI, 878 F.3d at 377, 380.
Notwithstanding these cases, if, in reviewing
the denial of a preliminary injunction, we determine
that a litigant cannot establish standing as a matter of
law, the proper course is to remand the case for dismissal. See Crow Creek Sioux Tribe v. Brownlee, 331
F.3d 912, 918 (D.C. Cir. 2003). Here, we find that EPIC
lacks standing as a matter of law. As a result, our only
remaining constitutional duty is to “correct[ ] the error
of the lower court in entertaining the suit.” See Steel
Co., 523 U.S. at 95, 118 S.Ct. 1003.
III. Conclusion
Because EPIC lacks standing, we vacate the
district court’s denial of the preliminary injunction
and remand for the purpose of dismissal.
So ordered.

17a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5031

September Term, 2018
FILED ON: JUNE 28, 2019

ELECTRONIC PRIVACY INFORMATION CENTER,
APPELLANT
V.

UNITED STATES DEPARTMENT OF COMMERCE AND
BUREAU OF THE CENSUS,
APPELLEES
Appeal from the United States District Court
for the District of Columbia
(No. 1:18-cv-02711)
Before: HENDERSON and MILLETT, Circuit Judges, and
SENTELLE, Senior Circuit Judge.
JUDGMENT
This cause came on to be heard on the record on
appeal from the United States District Court for the
District of Columbia and was argued by counsel. On
consideration thereof, it is
ORDERED and ADJUDGED that the judgment of the District Court appealed from in this cause
be vacated and the case be remanded to the District

18a
Court with instructions to dismiss, in accordance with
the opinion of the court filed herein this date.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken R. Meadows,
Deputy Clerk
Date: June 28, 2019
Opinion for the court filed by Senior Circuit Judge
Sentelle.

19a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
____________________
No. 19-5031

September Term, 2019
1:18-cv-02711-DLF
Filed On: September 16, 2019

Electronic Privacy Information Center,
Appellant
v.
United States Department of Commerce and Bureau
of the Census,
Appellees
____________________
BEFORE:

Henderson and Millett, Circuit Judges;
Sentelle, Senior Circuit Judge
ORDER

Upon consideration of appellant’s petition for
panel rehearing, or vacatur and remand filed on August 12, 2019, it is
ORDERED that the motion be denied. It is
FURTHER ORDERED that the request for
vacatur and remand be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk

20a
BY:

/s/
Michael C. McGrail,
Deputy Clerk

21a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
____________________
No. 19-5031

September Term, 2019
1:18-cv-02711-DLF
Filed On: September 16, 2019

Electronic Privacy Information Center,
Appellant
v.
United States Department of Commerce and Bureau
of the Census,
Appellees
____________________
BEFORE:

Garland, Chief Judge; Henderson, Rogers, Tatel, Griffith, Srinivasan, Millett,
Pillard, Wilkins, Katsas, and Rao, Circuit Judges; and Sentelle, Senior Circuit
Judge.
ORDER

Upon consideration of appellant’s petition for
rehearing en banc, or vacatur and remand, and the absence of a request by any member of the court for a
vote, it is
ORDERED that the petition be denied. It is
FURTHER ORDERED that the request for
vacatur and remand be denied.

22a
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Michael C. McGrail,
Deputy Clerk

23a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ELECTRONIC PRIVACY
INFORMATION CENTER,
Plaintiff,
v.
U.S. DEPARTMENT OF COMMERCE, et al.,
Defendants.

No. 18-cv-2711
(DLF)

MEMORANDUM OPINION
Plaintiff Electronic Privacy Information Center
(EPIC), a non-profit organization dedicated to privacy
and civil liberties issues, brings this action against the
U.S. Department of Commerce and the U.S. Census
Bureau under the Administrative Procedure Act
(APA) and the Declaratory Judgment Act. The plaintiff claims that the E-Government Act requires the defendants to conduct and release “privacy impact assessments” addressing Secretary of Commerce Wilbur
Ross’s March 26, 2018 decision to include a citizenship
question in the 2020 Census. The defendants agree,
but insist they still have plenty of time to do so “before”
actually “initiating a new collection of information”
within the meaning of the E-Government Act.1 Before
the Court is the plaintiff’s Motion for a Preliminary Injunction, Dkt. 8, seeking to enjoin Commerce and the
E-Government Act of 2002, § 208(b)(1)(A), Pub. L. 107-347, 116
Stat. 2899 (2002), codified at 44 U.S.C.A. § 3501 note (hereinafter
“E-Government Act”).
1

24a
Bureau from implementing Secretary Ross’s decision
to add a citizenship question to the Census, see Dkt. 82. For the following reasons, the Court will deny the
motion.
I.

BACKGROUND

A. Statutory Background
The E-Government Act requires federal agencies to “conduct a privacy impact assessment,” “ensure
the review of the privacy impact assessment,” and, “if
practicable, ... make the privacy impact assessment
publicly available” “before” “initiating a new collection
of information” that “will be collected, maintained or
disseminated using information technology” and that
“includes any information in an identifiable form permitting the physical or online contacting of a specific
individual, if identical questions have been posed to[ ]
... 10 or more persons.” E-Government Act §
208(b)(1)(A)–(B).
The term “collection of information” is defined
by statute as “the obtaining, causing to be obtained,
soliciting, or requiring the disclosure to third parties
or the public, of facts or opinions ... regardless of form
or format, calling for” “answers to identical questions
posed to ... ten or more persons[.]” 44 U.S.C. §
3502(3)(A); see also E-Government Act § 201 (incorporating § 3502 definitions by reference). The same term
is also used in OMB regulations to “refer[ ] to the act
of collecting or disclosing information, to the information to be collected or disclosed, to a plan and/or an
instrument calling for the collection or disclosure of information, or any of these, as appropriate.” 5 C.F.R. §
1320.3(c). The term “initiating” has no statutory or
regulatory definition.

25a
A privacy impact assessment—or “PIA”—must
“address” “what information is to be collected;” “why
the information is being collected;” “the intended use
of the agency of the information;” “with whom the information will be shared;” “what notice or opportunities for consent would be provided to individuals regarding what information is collected and how that information is shared;” “how the information will be secured;” and “whether a system of records is being created under [the Privacy Act].” E-Government Act §
208(b)(2)(B)(ii).
B. Factual Background
On March 26, 2018, Secretary of Commerce Wilbur Ross announced his decision to include a citizenship question on the 2020 Decennial Census questionnaire. See Bachman Decl. ¶ 12, Dkt. 12-1. That decision has been challenged elsewhere on a number of
grounds.2 For present purposes, all that matters is
whether—and, more importantly, when—the decision
to collect citizenship information had to be addressed
in one or more PIAs.
The Bureau is no stranger to PIAs. When Secretary Ross announced the inclusion of the citizenship
question in March 2018, the Bureau was already planning to conduct an annual PIA for the primary information technology system used for the decennial census. Bachman Decl. ¶¶ 3, 9. That system—called
“CEN08”—shares Census-related information with
four other systems: “CEN21,” “CEN05,” “CEN11,” and
“CEN13.” Id. ¶ 14. And a sixth information technology
system—called “CEN18”—enables the flow of
See New York v. U.S. Dep’t of Commerce, 351 F.Supp.3d 502
(S.D.N.Y. 2019).
2

26a
information between CEN08 and the other four systems. Id.
The Bureau maintains and regularly updates
PIAs for each of these systems. See id. ¶¶ 9, 15. The
PIA for CEN08 was updated in June and September of
2018, and another update is in progress and scheduled
for release in February or March of 2019. Id. ¶ 9. The
PIAs for the remaining systems were all updated in
June 2018 and will be reviewed and updated again
“within the next two months” as part of the Bureau’s
annual PIA process. Id. ¶ 15. In the meantime, the current PIAs for these systems are available to the public
online.3
The existing PIAs say little about the collection
of citizenship information in particular. The PIAs for
CEN05,4 CEN13,5 and CEN186 do not mention citizenship at all. And the PIAs for CEN087 and CEN118
mention citizenship only once, in a field labeled “Other

3

http://www.osec.doc.gov/opog/privacy/Census-pias.html?#.
http://www.osec.doc.gov/opog/privacy/Census%20PIAs/CEN05_PIA_SAOP_Approved.pdf.
4

http://www.osec.doc.gov/opog/privacy/Census%20PIAs/CEN13_PIA_SAOP_Approved.pdf.
5

http://www.osec.doc.gov/opog/privacy/Census%20PIAs/CEN18_PIA_SAOP_Approved.pdf.
6

http://www.osec.doc.gov/opog/privacy/Census%20PIAs/CEN08_PIA_SAOP_Approved.pdf.
7

http://www.osec.doc.gov/opog/privacy/Census%20PIAs/CEN11_PIA_SAOP_Approved.pdf.
8

27a
general personal data (specify),” without any analysis
or further context.9
Unsatisfied with this level of treatment, EPIC
filed this action on November 20, 2018. The complaint
asserts two counts under the APA and one count under
the Declaratory Judgment Act. Count I alleges that
the defendants acted unlawfully by adding the citizenship question to the Census without first conducting,
reviewing, and releasing PIAs to address that decision. Compl. ¶¶ 64–70 (citing 5 U.S.C. § 706(2)(a), (c)).
Count II alleges that the defendants unlawfully withheld agency action by failing to conduct, review, or release PIAs as required. Id. ¶¶ 71–76 (citing 5 U.S.C. §
706(1)). And Count III seeks a declaration of rights
and relations consistent with counts I and II. Id. ¶¶
77–78 (citing 28 U.S.C. § 2201(a)).
On January 15, 2019, a federal district court in
New York permanently enjoined Commerce and the
Bureau from including the citizenship question on the
Census. See New York v. U.S. Dep’t of Commerce, 351
F.Supp.3d at 679–80, 2019 WL 190285, at *125. Three
days later, EPIC filed this motion for a preliminary injunction, which the Court now resolves.
II. LEGAL STANDARD
A preliminary injunction is “an extraordinary
remedy that may only be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter
v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 22, 129 S.Ct.
365, 172 L.Ed.2d 249 (2008). To warrant a preliminary
injunction, a plaintiff “must make a clear showing”
that (1) he “is likely to succeed on the merits”; (2) he
The plaintiffs do not challenge the PIA for CEN21. See Compl.
¶¶ 49, 51–62, Dkt.1.
9

28a
“is likely to suffer irreparable harm in the absence of
preliminary relief”; (3) the “balance of equities” tips in
his favor; and (4) “an injunction is in the public interest.” Id. at 20, 129 S.Ct. 365; League of Women Voters
of United States v. Newby, 838 F.3d 1, 6 (D.C. Cir.
2016). The last two factors “merge when the Government is the opposing party.” Nken v. Holder, 556 U.S.
418, 435, 129 S.Ct. 1749, 173 L.Ed.2d 550 (2009). The
plaintiff “bear[s] the burdens of production and persuasion” when moving for a preliminary injunction.
Qualls v. Rumsfeld, 357 F.Supp.2d 274, 281 (D.D.C.
2005) (citing Cobell v. Norton, 391 F.3d 251, 258 (D.C.
Cir. 2004)).
“Before the Supreme Court’s decision in Winter,
courts weighed the preliminary injunction factors on a
sliding scale, allowing a weak showing on one factor to
be overcome by a strong showing on another factor.”
Standing Rock Sioux Tribe v. U.S. Army Corps of
Eng’rs, 205 F.Supp.3d 4, 26 (D.D.C. 2016). The D.C.
Circuit, however, has “suggested, without deciding,
that Winter should be read to abandon the slidingscale analysis in favor of a ‘more demanding burden’
requiring a plaintiff to independently demonstrate
both a likelihood of success on the merits and irreparable harm.” Id. (quoting Sherley v. Sebelius, 644 F.3d
388, 392–93 (D.C. Cir. 2011)); see also Davis v. Pension
Benefit Guar. Corp., 571 F.3d 1288, 1292 (D.C. Cir.
2009).
“Both before and after Winter, however, one
thing is clear: a failure to show a likelihood of success
on the merits alone is sufficient to defeat the motion.”
Hudson v. Am. Fed’n of Gov’t Employees, 308
F.Supp.3d 121, 127 (D.D.C. 2018) (citing Ark. Dairy
Co-op Ass’n, Inc. v. USDA, 573 F.3d 815, 832 (D.C. Cir.

29a
2009)). “[A]bsent a substantial indication of likely success on the merits, there would be no justification for
the Court’s intrusion into the ordinary processes of administration and judicial review.’ ” Archdiocese of
Washington v. Washing Metro. Area Transit Auth., 281
F.Supp.3d 88, 99 (D.D.C. 2017) (internal quotation
marks omitted), aff’d, 897 F.3d 314 (D.C. Cir. 2018).
Accordingly, “[u]pon finding that a plaintiff has failed
to show a likelihood of success on the merits, the Court
may deny a motion for preliminary injunction without
analyzing the remaining factors.” In re Akers, 487 B.R.
326, 331 (D.D.C. 2012); see also Hudson, 308
F.Supp.3d at 131–32 (same).
Likewise, “it is clear” before and after Winter
“that failure to show a likelihood of irreparable harm
remains, standing alone, sufficient to defeat the motion.” Navajo Nation v. Azar, 292 F.Supp.3d 508, 512
(D.D.C. 2018).
III. ANALYSIS
A. Likelihood of Success on the Merits
The defendants concede that they must eventually prepare PIAs that adequately address the collection of citizenship data in the 2020 Census. See, e.g.,
Defs.’ Opp’n at 1, 12, Dkt. 12. But they disagree with
the plaintiff that they were required to do so before
Secretary Ross announced his decision to add the citizenship question on March 26, 2018. As the defendants point out, the E-Government Act requires agencies to conduct (and, if practicable, release) a PIA only
before “initiating a new collection of information.” EGovernment Act § 208(b)(1)(A)(ii) (emphasis added).
And “initiating” the collection of information, the defendants argue, means more than just announcing a

30a
decision to collect information at some point in the future. It requires at least one instance of obtaining, soliciting, or requiring the disclosure of information,
which in the defendants’ view will not occur until the
Bureau mails its first batch of Census questionnaires
to the public. See Defs.’ Opp’n at 11–14. The Court
agrees.
“A fundamental canon of statutory construction
is that, unless otherwise defined, words will be interpreted as taking their ordinary, contemporary, common meaning.” Perrin v. United States, 444 U.S. 37,
42, 100 S.Ct. 311, 62 L.Ed.2d 199 (1979); see also New
Prime Inc. v. Oliveira, ––– U.S. ––––, 139 S.Ct. 532,
539, ––– L.Ed.2d –––– (2019) (same). Contemporary
dictionaries define “initiate” as “[t]o begin, commence,
enter upon; to introduce, set going, give rise to, originate, ‘start’ (a course of action, practice, etc.).” Oxford
English
Dictionary,
http://www.oed.com/
view/Entry/96066?rskey=wxG1jD&result=2&isAdvanced=false#eid;
see
also
Merriam-Webster,
https://www.merriam-webster.com/dictionary/initiate
(“to cause or facilitate the beginning of: set going”).
Black’s Law Dictionary similarly defines “initiate” as
to “[c]ommence, start; originate; introduce[.]” Black’s
Law Dictionary 784 (6th ed. 1990). These definitions
share a focus on the beginning, starting, or commencing of a course of conduct. In the words of Webster’s
Third, they contemplate “the first actions, steps, or
stages of” the activity initiated. Webster’s Third New
International Dictionary 1164 (3d ed. 1976)).
Combining this ordinary meaning with the statutory definition of “collection of information,” an
agency must conduct (and, if practicable, release) a
PIA before it begins “obtaining, causing to be obtained,

31a
soliciting, or requiring the disclosure to third parties
or the public, of facts or opinions[.]” 44 U.S.C. §
3502(3)(A). Commerce and the Bureau have not yet
gone so far. While Secretary Ross decided to collect citizenship information—and announced that decision in
a letter that the parties agree constitutes final agency
action, see Pl.’s Mot. at 24–25, Dkt. 8-1; Defs.’ Opp’n at
18—the defendants have yet to actually begin obtaining, soliciting, or requiring the disclosure of any citizenship data. Those actions will not occur until the Bureau mails its first set of questionnaires to the public
in January 2020. See Pl.’s Reply at 2, 13, Dkt. 13 (acknowledging that the questionnaires will be sent to
the public in January 2020); U.S. Census Bureau,
2020 Census Operational Plan: A New Design for the
21st Century 97 (Dec. 2018), https://www2.census.gov/programs-surveys/
decennial/2020/program-management/planningdocs/2020-oper-plan4.pdf (stating that the “printing,
addressing, and mailing of Internet invitations, reminder cards or letters, and paper questionnaire packages” will occur between June 2019 and April 2020).
A simple hypothetical offered by the defendants
illustrates why this interpretation tracks the plain
meaning of the statute. Imagine a happy couple is
planning a wedding, and a friend asks if they have “initiated the collection of RSVPs.” Ordinarily, they
would not say yes if they had merely finalized the
guest list, chosen a font for the invitations, or decided
to include a dinner selection on the RSVP cards. At
that point, they have not “initiated the collection” of
any RSVPs. They have merely made antecedent decisions about what information to collect—and from
whom—in the future. Likewise, when Secretary Ross

32a
decided to add a citizenship question to the yet-to-bemailed Census questionnaires—the equivalent of adding a dinner selection to an un-mailed RSVP card—he
did not “initiate a new collection of information” but
merely decided what new information the Bureau
would collect later.
The plaintiff resists this analogy because Secretary Ross’s decision was final and made the collection
of information all but inevitable. See Reply at 5. For
the analogy to hold, the plaintiff argues, the couple
would have had to place an order with a full-service
printer who will mail the invitations on a fixed date in
the future unless the couple cancels the order. Id. But
this change would not alter the couple’s response because the fact that an event is certain to occur in the
future does not mean it has already begun. To build on
the wedding analogy, a couple does not “initiate” their
marriage by getting engaged or choosing a wedding
date, even if those actions ordinarily serve as a final—
and binding—decision to tie the knot. As each subsequent anniversary celebration makes clear, they will
not have “initiated” their marriage until the wedding
day.
A similar usage applies in the legal context.
Courts routinely use the phrase “initiating an action”
to refer the filing of the complaint. See, e.g., Horne v.
Dep’t of Agric., 569 U.S. 513, 520, 133 S.Ct. 2053, 186
L.Ed.2d 69 (2013) (an agency “initiated an enforcement action” on the date the complaint was filed); Arnold v. U.S. Secret Serv., 524 F.Supp.2d 65, 66 (D.D.C.
2007) (the plaintiff “initiated this action” on the date
the complaint was filed). And it would be unusual—if
not downright misleading—to claim to have “initiated”
a lawsuit when in fact one had merely decided which

33a
claims to allege in the complaint. That is because “initiating” normally means “beginning”—in the law as
everywhere else. And there is a meaningful difference
between deciding or preparing to bring a lawsuit and
actually initiating it.
Congress must have been aware of this distinction. After all, it had a range of terms at its disposal if
it wanted agencies’ assessment and reporting obligations to arise earlier in the data-collection process. For
instance, Congress could have required a PIA before
“planning” or “providing for” a new collection of information. See E-Government Act (132 references to variations of the words “plan” or “provide”). Alternatively,
Congress could have required a PIA whenever an
agency makes a “determination” or “decision” to initiate a new collection of information. See id. (40 references). “The fact that [Congress] did not adopt th[ese]
readily available and apparent alternative[s] strongly
supports rejecting” an interpretation that would substitute them for the word Congress did choose. Knight
v. Comm’r, 552 U.S. 181, 188, 128 S.Ct. 782, 169
L.Ed.2d 652 (2008).
Indeed, the only other use of “initiate” in the EGovernment Act confirms that Congress uses that
word deliberately to refer to actions beyond mere decisionmaking or planning. See Antonin Scalia & Bryan
A. Garner, Reading Law: The Interpretation of Legal
Texts 170 (2012) (“A word or phrase is presumed to
bear the same meaning throughout a text[.]”). Section
214(c) requires the Administrator of the Office of Electronic Government to “initiate pilot projects or report
to Congress on other activities that further the goal of
maximizing the utility of information technology in
disaster management.” E-Government Act § 214(c).

34a
Plainly, this obligation would not be satisfied if the Administrator merely announced a decision to initiate a
pilot project at some point in the future. The natural
interpretation of § 214(c) is that the Administrator
must either actually commence a pilot project or else
perform “other activities” that serve the same goals.
Although the plaintiff does not address § 214(c),
it notes that elsewhere in Title 44 Congress apparently drew a distinction between “initiating,” “carrying out,” and “completing.” See Pl.’s Mot. at 19 (quoting
44 U.S.C. § 3902(a)). The relevant provision states
that the “Director of the Government Publishing Office shall have no authority to prevent or prohibit the
Inspector General from initiating, carrying out, or
completing any audit or investigation[.]” 44 U.S.C. §
3902(a) (emphasis added). In the plaintiff’s view, this
sentence proves that Congress uses “initiating” to
mean something different and less than “carrying
out”; thus, it must include the decision to carry out an
activity in the future. The Court is unconvinced. To be
sure, “[i]t is a cardinal principle of statutory construction that [a court] must give effect, if possible, to every
clause and word of a statute.” NLRB. v. SW Gen., Inc.,
––– U.S. ––––, 137 S.Ct. 929, 197 L.Ed.2d 263 (2017)
(alteration adopted and internal quotation marks
omitted). But it would not produce any redundancy to
interpret “initiating” in § 3902(a) to refer to the actual
commencement of an audit or investigation. Section
3902(a) describes the beginning, middle, and end of an
audit or investigation, and it makes clear that the Director cannot prevent the Inspector General from proceeding at any point in that process. If the Inspector
General has not yet begun an audit or investigation,
the Director cannot prevent him from “initiating” one;

35a
if he has already begun an audit or investigation, the
Director cannot prevent him from “carrying [it] out”;
and if he is nearing the end of an audit or investigation, the Director cannot prevent him from “completing” it. While the words “carrying out” might technically be used to describe the first or last step of an audit or investigation—just as it describes every step in
between—it is more natural to refer to those steps as
“initiating” and “completing” the audit or investigation. And there is nothing surprising about using the
three terms together to emphasize the Inspector General’s freedom from interference from beginning to
end.
The plaintiff raises a number of additional arguments to support its interpretation, but none are
persuasive. First, the plaintiff attempts to show that
the text itself encompasses a decision to collect information at some point in the future. The plaintiff highlights the use of gerunds in the definition of “collection
of information,” see 44 U.S.C. § 3502(3)(A) (“obtaining,” “causing,” “soliciting,” or “requiring”), and argues
that this grammatical choice connotes “a process, not
a one-off action,” Pl.’s Reply at 4. But even so, the statute makes clear what that process consists of: the “obtaining” of information, the “causing” of information to
be obtained, the “soliciting” of information, and the
“requiring” of the disclosure of information. 44 U.S.C.
§ 3502(3)(A). Consequently, “initiating” a “collection of
information”—even if viewed as a process—still requires the beginning of at least one of these actions.
The plaintiff also argues that Congress would
not have used the six-word phrase “initiating a new
collection of information” if it meant “collecting new
information” and could have said so directly in three

36a
fewer words. See Reply at 4. But this observation ignores that the noun form “collection of information”
has a statutory definition that Congress may have
used for clarity or consistency. Moreover, the defendants have never argued that the agency must actually
“collect”—that is, obtain or receive—information to
have initiated a new collection of information under §
208. They acknowledge that performing any one of the
gerunds listed in 44 U.S.C. § 3502(3)(A) would qualify
as “initiating” the collection of information. Thus, “soliciting” or “requiring the disclosure” of citizenship
data—here, by mailing Census questionnaires—would
require a PIA even if no information has been obtained
in response. See Defs.’ Opp’n at 12.
Next, the plaintiff argues that Secretary Ross
literally “requir[ed] the disclosure of facts or opinions
to third parties” when he issued the March 26, 2018
decision adding a citizenship question to the Census.
See Pl.’s Reply at 7. That is simply not true. By the
plaintiff’s own admission, the public will not be obligated to disclose information to third-parties until the
Bureau actually implements the 2020 Census. See id.
(“[M]embers of the public will inevitably come under
an obligation to disclose their citizenship status via
the 2020 Census”); id. at 14 (“[O]nce [the Bureau]
sends out the questionnaires, individuals will be legally obligated to respond.”).
Second, EPIC attempts to draw various inferences from statutory structure. For instance, the
plaintiff points to other provisions in Title 44 that describe the “collection of information” in contexts where
an agency clearly has not begun obtaining or soliciting
information. See Pl.’s Reply at 5–6 (citing, e.g., 44
U.S.C. § 3505). But these provisions are both

37a
unsurprising and irrelevant because none use the critical word “initiate.” Of course, an agency can “propose,” “review,” “approve,” or “reject” a collection of information without “initiating” it, just as one can propose or reject a marriage without initiating one. But
that possibility says nothing about what it means to
initiate a collection of information.
The plaintiff also highlights the provision directly adjacent to § 208(b)(1)(A)(ii), which requires a
PIA before “developing or procuring information technology that collects, maintains, or disseminates information[.]” E-Government Act § 208(b)(1)(A)(i). In the
plaintiff’s view, the choice to require a PIA before “developing” or “procuring” technology—and not merely
before “activating” or “deploying” it—shows that Congress intended PIAs to be completed early on in an
agency’s decisionmaking process. See Pl.’s Reply at 6.
But one could just as easily draw the opposite inference and conclude that when Congress wants to require a PIA at a preliminary stage, like development
or procurement, it does so explicitly.
Third, the plaintiff invokes OMB regulations
that implement a related statute, the Paperwork Reduction Act, whose definitions are incorporated into
the E-Government Act. See Pl.’s Mot. at 20; see also 5
C.F.R. § 1320.3 (implementing the Paperwork Reduction Act); 44 U.S.C. § 3502 (defining terms in Paperwork Reduction Act); E-Government Act § 201 (incorporating definitions in § 3502 by reference). Those regulations explain that OMB uses the term “collection of
information” to refer not only to the “act of collecting
or disclosing information” but also “to the information
to be collected or disclosed” or to a “plan and/or an instrument calling for the collection or disclosure of

38a
information.” 5 C.F.R. § 1320.3(c) (emphasis added).
Applying this expansive regulatory definition, the
plaintiff argues that Secretary Ross “introduced a definite plan ... calling for the collection or disclosure of
information” and thereby initiated a collection of information under § 208. Pl.’s Mot. at 21 (internal quotation marks omitted). Again, the Court is unpersuaded.
The OMB regulations define “collection of information” only “[a]s used in this Part”—that is, in the
Paperwork Reduction Act regulations themselves. 5
C.F.R. § 1320.3(c). They do not purport to define the
terms of the E-Government Act. This limitation is not
just a technicality. Unlike § 208, the regulations implementing the Paperwork Reduction Act use the
phrase “collection of information” to refer both to the
act of collecting information and as a noun to describe
materials submitted by an agency to OMB for approval. See, e.g., id. § 1320.10. Given these multiple
meanings, it makes sense for OMB to provide separate
definitions for each. But it would be nonsensical to import these specialized, regulation-specific uses to §
208, which plainly uses “the collection of new information” to describe an event. To illustrate, it would be
incoherent to speak of “initiating” “information” or “initiating” an “instrument.” Yet that is the result of inserting the OMB definitions into § 208, where they
were not meant to apply. And while one can “initiate”
a “plan,” it would be unwise to cherry-pick one component of a definition that, as a whole, was clearly designed for another purpose. Indeed, even OMB does
not ordinarily invoke all three regulatory meanings of
“collection of information” at once; rather, it uses the
phrase to refer to “any” one of them, “as appropriate.”

39a
Id. § 1320.3(c). Since in context, § 208 clearly refers to
“the act of collecting or disclosing information,” it is irrelevant that OMB sometimes uses the same phrase
to refer to something else, like a “plan.”
In any event, even if the OMB regulations did
apply, they would not change the outcome here. To “initiate” a “plan” would still mean to commence it or put
it into action, not merely to announce it, as EPIC suggests, see Pl.’s Mot. at 20–21. Thus, a “plan ... calling
for the collection or disclosure of information” would
not be “initiated” until the “collection or disclosure”
“call[ed] for” actually begins—in this case, with the
mailing of questionnaires to the public.
Fourth, the plaintiff invokes precedent, pointing to a D.C. Circuit decision that mentioned in passing that an agency “need not prepare a privacy impact
assessment unless it plans to collect information.”
EPIC v. Presidential Advisory Comm’n on Election Integrity, 878 F.3d 371, 380 (D.C. Cir. 2017) (emphasis
added). Setting aside that this quote addresses
whether an agency must prepare a PIA—not when—
EPIC overlooks that the same decision elsewhere describes the E-Government Act as requiring an agency
to “conduct, review and, if practicable, publish a privacy impact assessment before it collects information.”
Id. at 375 (emphasis added and internal quotation
marks omitted); see also id. (describing the Act as “requiring an agency to fully consider [individuals’] privacy before collecting their personal information” (emphasis added)). If anything, EPIC supports the defendants’ interpretation, although the Court declines to attach significance either way to a decision that had no
occasion to interpret the statutory language.

40a
Fifth, the plaintiff argues that allowing agencies to wait until after deciding to collect information
to conduct and publish a PIA would frustrate the purpose of the E-Government Act’s privacy provisions. See
Pl.’s Reply at 9. But “[e]ven the most formidable argument concerning the statute’s purposes could not overcome the clarity” of “the statute’s text.” Kloeckner v.
Solis, 568 U.S. 41, 55 n.4, 133 S.Ct. 596, 184 L.Ed.2d
433 (2012). At any rate, here the statutory purpose
and plain text are perfectly compatible. The E-Government Act has many purposes—eleven to be exact—and
nearly all focus on improving Government efficiency,
transparency, and performance through the use of the
Internet and emerging technologies. See E-Government Act § 2(b)(1)–(11). Congress recognized, however,
that this shift to “electronic Government” could create
privacy concerns, and it addressed those concerns
through the “Privacy Provisions” embodied in § 208.
Id. § 208(a). Importantly, § 208 is not a general privacy
law; nor is it meant to minimize the collection of personal information. Rather, its express purpose is “to
ensure sufficient protections for the privacy of personal information as agencies implement citizen-centered electronic Government.” Id. Congress’s focus on
ensuring “protections” when agencies “implement”
electronic Government shows that § 208’s provisions—
including the requirement to prepare PIAs—were not
meant to discourage agencies from collecting personal
information but rather to ensure that they have sufficient protections in place before they do. It is no surprise, then, that Congress would require agencies to
prepare PIAs only before they actually begin to gather,
store, and potentially share personal information.

41a
The plaintiff advocates a much broader conception of § 208’s purpose aimed at influencing agency decisionmaking. To support that vision, it cites cases discussing the National Environmental Policy Act
(NEPA), 42 U.S.C. § 4321 et seq., which requires agencies to prepare “environmental impact statements.”
See Pl.’s Reply at 9 (citing Jones v. D.C. Redevelopment
Land Agency, 499 F.2d 502, 512 (D.C. Cir. 1974) and
Lathan v. Volpe, 455 F.2d 1111, 1121 (9th Cir. 1971)).
But the E-Government Act and NEPA are hardly analogous. Although they both require a form of “impact”
assessment, the role and timing of those assessments
differ sharply. Unlike the E-Government Act, NEPA
explicitly requires an impact statement to be included
“in every recommendation or report on proposals for
legislation and other Federal actions” that meet certain criteria. 42 U.S.C. § 4332(C) (emphasis added).
EPA regulations further specify that “[a]n agency
shall commence preparation of an environmental impact statement as close as possible to the time the
agency is developing or is presented with a proposal,”
and the statement must “be prepared early enough so
that it can serve practically as an important contribution to the decisionmaking process and will not be used
to rationalize or justify decisions already made.” 40
C.F.R. 1502.5 (emphasis added). The regulations go on
to provide specific deadlines for preparing environmental statements depending on the type of agency action proposed. Id. (a)–(d). This language—explicitly tying impact statements to agency decisionmaking and
imposing clear and specific deadlines as early as possible in the decisionmaking process—is notably absent
from the E-Government Act, which requires only that
agencies conduct and, if practicable, release a privacy

42a
impact assessment before “initiating the new collection of information” and only then for the purpose of
“ensuring sufficient protections” for the information
collected.
That is not to say that negative policy consequences cannot ever result if an agency drags its feet
in performing its PIA obligations. See Pl.’s Reply at 3.
But publishing a PIA shortly before commencing a
new collection of information does not make the PIA
“useless,” as EPIC claims. See id. Indeed, publishing a
PIA even belatedly would support one of the purposes
of the E-Government Act to “make the Federal Government more transparent and accountable,” E-Government Act § 2(b)(9), and would inform citizens why
their data is being collected, how it is secured, and
with whom it will be shared. See id. § 208(b)(2)(B)(ii).
For all of these reasons, the Court interprets
“initiating a new collection of information,” E-Government Act § 208(b)(1)(A)(ii), to require at least one instance of “obtaining, causing to be obtained, soliciting,
or requiring the disclosure ... of facts or opinions,” 44
U.S.C. § 3502(3)(A). This interpretation is fatal to the
plaintiff’s APA claims. The Bureau did not act contrary to the E-Government Act by deciding to collect
citizenship data before conducting, reviewing, or releasing a PIA addressing that decision. See 5 U.S.C. §
706(2). Nor have the defendants “unlawfully withheld”
agency action by declining to conduct or release a PIA
earlier than they were required to under the statute.

43a
See id. § 706(1). EPIC is therefore unlikely to succeed
on the merits.10
B. Likelihood of Irreparable Harm
“Having concluded that plaintiff has no likelihood of success on the merits, the Court finds it unnecessary to weight the remaining preliminary injunction
factors.” Doe v. Hammond, 502 F.Supp.2d 94, 102
(D.D.C. 2007). Nonetheless, the Court will briefly address the plaintiff’s three theories of irreparable
harm—none of which are persuasive.
First, the plaintiff argues that the Bureau’s ongoing failure to publish adequate PIAs irreparably
harms its members by denying them information vital
to a national debate. Pl.’s Mot. at 27. But even assuming this harm is irreparable, it will not be redressed by
the relief requested. The plaintiff does not seek an affirmative injunction directing the defendants to perform or publish a PIA. It seeks only negative injunctions preventing the Bureau from “implementing” Secretary Ross’s “decision to add a citizenship question to
the 2020 Census” and from “initiating any collection of
citizenship status information that would be obtained
through the 2020 Census.” Pl.’s Proposed Order, Dkt.
The defendants argue that this interpretation of § 208 also
leads to certain prudential and jurisdictional consequences—
namely, a lack of ripeness or final agency action. See Defs.’ Opp’n
at 16–21. But these arguments would only be relevant if EPIC
sought to challenge, prospectively, the agencies’ failure to conduct
or release adequate PIAs in the future. It does not. See Pl.’s Reply
at 13. EPIC challenges only the defendants’ past failure to conduct or release adequate PIAs before Secretary Ross issued his
decision on March 26, 2018. See, e.g., Pl.’s Reply at 10–13; Compl.
¶¶ 64–76. The Court therefore need not consider whether a different claim premised on future acts or omissions could proceed.
10

44a
8-2. As the D.C. Circuit has explained, “halting” the
“collection of ... data” cannot redress an informational
injury under the E-Government Act because “ordering
the defendants not to collect ... data only negates the
need (if any) to prepare an impact assessment, making
it less likely that EPIC will obtain the information it
says is essential.” EPIC, 878 F.3d at 380 (emphasis in
original). Because the purported deprivation of information is not redressable through the relief requested,
the Court cannot rely on it to establish irreparable
harm.
Second, the plaintiff argues that its members
suffered irreparable harm from Secretary Ross’s failure to conduct a PIA and take privacy considerations
into account before deciding to collect citizenship data.
See Pl.’s Mot. at 29–31. The plaintiff acknowledges
that this harm has already “mature[d]”, id. at 30 (internal quotation marks omitted), and that the defendants will not change course absent judicial intervention, see Pl.’s Reply at 5, 7, but it nonetheless argues
that “equitable intervention is necessary” before an
“irretrievable commitment of resources” occurs that
might render any future PIA a rubber stamp, id. at 15
(internal quotation marks omitted). The problem,
however, is that the earliest “irretrievable commitment” the plaintiff identifies is the “printing, addressing, and mailing” of Census materials in June 2019.
Pl.’s Mot. at 30 (internal quotation marks omitted).
That event, still four months away, is not “of such imminence that there is a clear and present need for equitable relief to prevent irreparable harm,” Wisconsin
Gas Co. v. FERC, 758 F.2d 669, 674 (D.C. Cir. 1985)
(internal quotation marks omitted), particularly in an
APA suit where summary judgment typically “serves

45a
as the mechanism for deciding, as a matter of law,
whether the agency action is ... consistent with the
APA standard of review,” Sierra Club v. Mainella, 459
F.Supp.2d 76, 90 (D.D.C. 2006). Given the possibility
of resolving this suit on the merits through expedited
summary judgment briefing, the plaintiff has not
shown a present need for equitable relief to maintain
the status quo. Further, another court has already permanently enjoined the Bureau from implementing the
Census with a citizenship question. See New York v.
U.S. Dep’t of Commerce, 351 F.Supp.3d at 679–80,
2019 WL 190285, at *125. Thus, the prospect of printing and mailing questionnaires that include the citizenship question is far from “certain,” Wisconsin Gas
Co., 758 F.2d at 674, and will only occur if the Bureau
successfully challenges the injunction on appeal.
Finally, the plaintiff argues that its members
will be irreparably harmed if and when their own citizenship data is collected. But this harm, too, is neither
imminent nor certain. The parties agree that the Bureau will not mail any questionnaires until January
2020 at the earliest. Pl.’s Reply at 2, 14; Defs.’ Opp’n
at 26–27. And, again, even that will only happen if the
permanent injunction already in effect is vacated or
reversed on appeal.
In short, the plaintiff has not demonstrated a
“certain” injury “of such imminence that there is a
clear and present need for equitable relief to prevent
irreparable harm.” Wisconsin Gas Co., 758 F.2d at 674
(emphasis and internal quotation marks omitted).
That failure alone, like the failure to show a likelihood
of success on the merits, provides an independent
ground for denying its motion. Navajo Nation, 292
F.Supp.3d at 512.

46a
IV. CONCLUSION
For the foregoing reasons, the Court will deny
the plaintiff’s motion for a preliminary injunction. A
separate order accompanies this memorandum opinion.

February 8, 2019

/s/
DABNEY L. FRIEDRICH
United States District Judge

47a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ELECTRONIC PRIVACY
INFORMATION CENTER,
Plaintiff,
v.
U.S. DEPARTMENT OF COMMERCE, et al.,
Defendants.

No. 18-cv-2711
(DLF)

ORDER
For the reasons stated in the accompanying
memorandum opinion, it is
ORDERED that plaintiff’s Motion for a Preliminary Injunction, Dkt. 8, is DENIED.
/s/
DABNEY L. FRIEDRICH
United States District Judge
February 8, 2019

48a
APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ELECTRONIC PRIVACY
INFORMATION CENTER,
Plaintiff,
v.
U.S. DEPARTMENT OF COMMERCE, et al.,
Defendants.

No. 18-cv-2711
(DLF)

MINUTE ORDER
On June 28, 2019, the U.S. Court of Appeals for
the D.C. Circuit reviewed this Court's denial of Epic's
motion for a preliminary injunction. See Elec. Privacy
Info. Ctr. v. U.S. Dep't of Commerce and Bureau of the
Census, 928 F.3d 95 (D.C. Cir. 2019). The Circuit held
"that EPIC lacks standing as a matter of law." Id. at
104. On that ground, it vacated this Court's denial of
the preliminary injunction and remanded "for the purpose of dismissal." Id. at 105. On October 2, 2019, the
mandate from the Circuit issued. As such, this case is
DISMISSED for lack of jurisdiction. The Clerk of
Courts is directed to close this case. So Ordered by
Judge Dabney L. Friedrich on October 3, 2019.

49a
APPENDIX H
STATUTORY PROVISIONS

1. The United States Constitution provides, in relevant part:
U.S. Const. Art. I, § 2, Cl. 3
Representatives and direct Taxes shall be apportioned among the several States which may be included within this Union, according to their respective
Numbers, which shall be determined by adding to the
whole Number of free Persons, including those bound
to Service for a Term of Years, and excluding Indians
not taxed, three fifths of all other Persons. The actual
Enumeration shall be made within three Years after
the first Meeting of the Congress of the United States,
and within every subsequent Term of ten Years, in
such Manner as they shall by Law direct. The Number
of Representatives shall not exceed one for every thirty
Thousand, but each State shall have at Least one Representative; and until such enumeration shall be
made, the State of New Hampshire shall be entitled to
chuse three, Massachusetts eight, Rhode-Island and
Providence Plantations one, Connecticut five, NewYork six, New Jersey four, Pennsylvania eight, Delaware one, Maryland six, Virginia ten, North Carolina
five, South Carolina five, and Georgia three.
*****

50a
2. The Administrative Procedure Act, Pub. L. No. 79404, 60 Stat. 237, as amended and codified at 5 U.S.C.
§§ 551 et seq., provides, in relevant part:
§ 702. Right of review
A person suffering legal wrong because of
agency action, or adversely affected or aggrieved by
agency action within the meaning of a relevant statute, is entitled to judicial review thereof. An action in
a court of the United States seeking relief other than
money damages and stating a claim that an agency or
an officer or employee thereof acted or failed to act in
an official capacity or under color of legal authority
shall not be dismissed nor relief therein be denied on
the ground that it is against the United States or that
the United States is an indispensable party. The
United States may be named as a defendant in any
such action, and a judgment or decree may be entered
against the United States: Provided, That any mandatory or injunctive decree shall specify the Federal officer or officers (by name or by title), and their successors in office, personally responsible for compliance.
Nothing herein (1) affects other limitations on judicial
review or the power or duty of the court to dismiss any
action or deny relief on any other appropriate legal or
equitable ground; or (2) confers authority to grant relief if any other statute that grants consent to suit expressly or impliedly forbids the relief which is sought.
§ 704. Actions reviewable
Agency action made reviewable by statute and
final agency action for which there is no other adequate remedy in a court are subject to judicial review.

51a
A preliminary, procedural, or intermediate agency action or ruling not directly reviewable is subject to review on the review of the final agency action. Except
as otherwise expressly required by statute, agency action otherwise final is final for the purposes of this section whether or not there has been presented or determined an application for a declaratory order, for any
form of reconsideration, or, unless the agency otherwise requires by rule and provides that the action
meanwhile is inoperative, for an appeal to superior
agency authority.
§ 706. Scope of review
To the extent necessary to decision and when
presented, the reviewing court shall decide all relevant questions of law, interpret constitutional and
statutory provisions, and determine the meaning or
applicability of the terms of an agency action. The reviewing court shall—
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law;
(B) contrary to constitutional right, power, privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or short of statutory right;
(D) without observance of procedure required
by law;
(E) unsupported by substantial evidence in a
case subject to sections 556 and 557 of this title

52a
or otherwise reviewed on the record of an
agency hearing provided by statute; or
(F) unwarranted by the facts to the extent that
the facts are subject to trial de novo by the reviewing court.
*****
3. Title 13 of the United States Code provides, in relevant part:
§ 2. Bureau of the Census
The Bureau is continued as an agency within,
and under the jurisdiction of, the Department of Commerce.
§ 5. Questionnaires; number, form, and scope of
inquiries
The Secretary shall prepare questionnaires,
and shall determine the inquiries, and the number,
form, and subdivisions thereof, for the statistics, surveys, and censuses provided for in this title.
§ 141. Population and other census information
(a) The Secretary shall, in the year 1980 and every 10
years thereafter, take a decennial census of population
as of the first day of April of such year, which date
shall be known as the “decennial census date”, in such
form and content as he may determine, including the
use of sampling procedures and special surveys. In
connection with any such census, the Secretary is

53a
authorized to obtain such other census information as
necessary.
§ 221. Refusal or neglect to answer questions;
false answers
(a) Whoever, being over eighteen years of age, refuses
or willfully neglects, when requested by the Secretary,
or by any other authorized officer or employee of the
Department of Commerce or bureau or agency thereof
acting under the instructions of the Secretary or authorized officer, to answer, to the best of his
knowledge, any of the questions on any schedule submitted to him in connection with any census or survey
provided for by subchapters I, II, IV, and V of chapter
5 of this title, applying to himself or to the family to
which he belongs or is related, or to the farm or farms
of which he or his family is the occupant, shall be fined
not more than $100.
(b) Whoever, when answering questions described in
subsection (a) of this section, and under the conditions
or circumstances described in such subsection, willfully gives any answer that is false, shall be fined not
more than $500.
(c) Notwithstanding any other provision of this title,
no person shall be compelled to disclose information
relative to his religious beliefs or to membership in a
religious body.
*****
5. Title 44 of the United States Code provides, in relevant part:

54a
§ 3501. Purposes
The purposes of this subchapter are to—
*
*
*
(4) improve the quality and use of Federal information
to strengthen decisionmaking, accountability, and
openness in Government and society;
§ 3502. Definitions
As used in this subchapter—
*
*
*
(3) the term “collection of information”-(A) means the obtaining, causing to be obtained,
soliciting, or requiring the disclosure to third parties
or the public, of facts or opinions by or for an agency,
regardless of form or format, calling for either-(i) answers to identical questions posed to, or
identical reporting or recordkeeping requirements imposed on, ten or more persons, other than agencies, instrumentalities, or employees of the United States; or
(ii) answers to questions posed to agencies, instrumentalities, or employees of the United States
which are to be used for general statistical purposes;
and
(B) shall not include a collection of information described under section 3518(c)(1);
*****
6. The E-Government Act of 2002, Pub. L. No. 107-347,
116 Stat. 2899, provides, in relevant part:

55a
An Act
To enhance the management and promotion of
electronic Government services and processes by establishing a Federal Chief Information Officer within
the Office of Management and Budget, and by establishing a broad framework of measures that require
using Internet-based information technology to enhance citizen access to Government information and
services, and for other purposes.
*
*
*
SEC. 2. FINDINGS AND PURPOSES.
(a) Findings.—Congress finds the following:
(1) The use of computers and the Internet is rapidly transforming societal interactions and the
relationships among citizens, private businesses, and the Government.
(2) The Federal Government has had uneven
success in applying advances in information
technology to enhance governmental functions
and services, achieve more efficient performance, increase access to Government information, and increase citizen participation in
Government.
(3) Most Internet-based services of the Federal
Government are developed and presented separately, according to the jurisdictional boundaries of an individual department or agency, rather than being integrated cooperatively according to function or topic.

56a
(4) Internet-based Government services involving interagency cooperation are especially difficult to develop and promote, in part because of
a lack of sufficient funding mechanisms to support such interagency cooperation.
(5) Electronic Government has its impact
through improved Government performance
and outcomes within and across agencies.
(6) Electronic Government is a critical element
in the management of Government, to be implemented as part of a management framework
that also addresses finance, procurement, human capital, and other challenges to improve
the performance of Government.
(7) To take full advantage of the improved Government performance that can be achieved
through the use of Internet-based technology
requires strong leadership, better organization,
improved interagency collaboration, and more
focused oversight of agency compliance with
statutes related to information resource management.
(b) Purposes.—The purposes of this Act are the following:
(1) To provide effective leadership of Federal
Government efforts to develop and promote
electronic Government services and processes
by establishing an Administrator of a new Office of Electronic Government within the Office
of Management and Budget.
(2) To promote use of the Internet and other information technologies to provide increased opportunities for citizen participation in Government.

57a
(3) To promote interagency collaboration in
providing electronic Government services,
where this collaboration would improve the service to citizens by integrating related functions,
and in the use of internal electronic Government processes, where this collaboration would
improve the efficiency and effectiveness of the
processes.
(4) To improve the ability of the Government to
achieve agency missions and program performance goals.
(5) To promote the use of the Internet and
emerging technologies within and across Government agencies to provide citizen-centric
Government information and services.
(6) To reduce costs and burdens for businesses
and other Government entities.
(7) To promote better informed decisionmaking
by policy makers.
(8) To promote access to high quality Government information and services across multiple
channels.
(9) To make the Federal Government more
transparent and accountable.
(10) To transform agency operations by utilizing, where appropriate, best practices from public and private sector organizations.
(11) To provide enhanced access to Government
information and services in a manner consistent
with laws regarding protection of personal privacy, national security, records retention, access for persons with disabilities, and other relevant laws.

58a
*

*

*

TITLE II—FEDERAL MANAGEMENT AND PROMOTION OF ELECTRONIC GOVERNMENT
SERVICES
SEC. 201. DEFINITIONS.
Except as otherwise provided, in this title the
definitions under sections 3502 and 3601 of title 44,
United States Code, shall apply.
*
*
*
SEC. 208. PRIVACY PROVISIONS.
(a) Purpose.—The purpose of this section is to ensure sufficient protections for the privacy of personal
information as agencies implement citizen-centered
electronic Government.
(b) Privacy Impact Assessments.—
(1) Responsibilities of agencies.—
(A) In general.—An agency shall take actions described under subparagraph (B)
before—
(i) developing or procuring information technology that collects,
maintains, or disseminates information that is in an identifiable
form; or
(ii) initiating a new collection of
information that—
(I) will be collected, maintained,
or disseminated using information technology; and
(II) includes any information in
an identifiable form permitting

59a
the physical or online contacting of a specific individual, if
identical questions have been
posed to, or identical reporting
requirements imposed on, 10 or
more persons, other than agencies, instrumentalities, or employees of the Federal Government.
(B) Agency activities.—To the extent required under subparagraph (A), each
agency shall—
(i) conduct a privacy impact assessment;
(ii) ensure the review of the privacy impact assessment by the
Chief Information Officer, or
equivalent official, as determined
by the head of the agency; and
(iii) if practicable, after completion
of the review under clause (ii),
make the privacy impact assessment publicly available through
the website of the agency, publication in the Federal Register, or
other means.
(C) Sensitive information.—Subparagraph (B)(iii) may be modified or waived
for security reasons, or to protect classified, sensitive, or private information
contained in an assessment.
(D) Copy to director.—Agencies shall provide the Director with a copy of the

60a
privacy impact assessment for each system for which funding is requested.
(2) Contents of a privacy impact assessment.—
(A) In general.—The Director shall issue
guidance to agencies specifying the required contents of a privacy impact assessment.
(B) Guidance.—The guidance shall—
(i) ensure that a privacy impact assessment is commensurate with
the size of the information system
being assessed, the sensitivity of
information that is in an identifiable form in that system, and the
risk of harm from unauthorized release of that information; and
(ii) require that a privacy impact assessment address—
(I) what information is to be
collected;
(II) why the information is
being collected;
(III) the intended use of the
agency of the information;
(IV) with whom the information will be shared;
(V) what notice or opportunities for consent would be
provided to individuals regarding what information is
collected and how that information is shared;

61a
(VI) how the information
will be secured; and
(VII) whether a system of
records is being created under section 552a of title 5,
United States Code, (commonly referred to as the
``Privacy Act’’).
(3) Responsibilities of the director.—The Director shall—
(A) develop policies and guidelines for
agencies on the conduct of privacy impact
assessments;
(B) oversee the implementation of the
privacy impact assessment process
throughout the Government; and
(C) require agencies to conduct privacy
impact assessments of existing information systems or ongoing collections of
information that is in an identifiable
form as the Director determines appropriate.
(c) Privacy Protections on Agency Websites.—
(1) Privacy policies on websites.—
(A) Guidelines for notices.—The Director
shall develop guidance for privacy notices
on agency websites
used by the public.
(B) Contents.—The guidance shall require that a privacy notice address, consistent with section 552a of title 5,
United States Code—

62a
(i) what information is to be collected;
(ii) why the information is being
collected;
(iii) the intended use of the agency
of the information;
(iv) with whom the information
will be shared;
(v) what notice or opportunities for
consent would be provided to individuals regarding what information is collected and how that
information is shared;
(vi) how the information will be secured; and
(vii) the rights of the individual
under section 552a of title 5,
United States Code (commonly referred to as the ``Privacy Act’’),
and other laws relevant to the protection of the privacy of an individual.
(2) Privacy policies in machine-readable formats.—The Director shall issue guidance requiring agencies to translate privacy policies
into a standardized machine-readable format.
(d) Definition.—In this section, the term “identifiable
form” means any representation of information that
permits the identity of an individual to whom the information applies to be reasonably inferred by either
direct or indirect means.

